         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report
Allegations Regarding the
Department of Energy's State
Energy Program Funding to South
Dakota




OAS-RA-L-14-01                       April 2014
                                  Department of Energy
                                      Washington, DC 20585

                                         April 14, 2014


MEMORANDUM FOR THE MANAGER OF THE STATE ENERGY PROGRAM


FROM:                     Jack Rouch, Director
                          Central Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Special Report on "Allegations Regarding the
                          Department of Energy's State Energy Program Funding to South
                          Dakota"

BACKGROUND

The Department of Energy's (Department) State Energy Program (SEP) provides assistance to
states and territories to support energy priorities. The American Recovery and Reinvestment Act
of 2009 (Recovery Act) authorized about $3.1 billion to enhance SEP with funding based on a
formula grant process. In April 2009, the Department awarded about $23.7 million to South
Dakota for its Recovery Act SEP, through the state's Department of Tourism and State
Development, which was succeeded by the Governor's Office of Economic Development
(GOED). South Dakota's Office of the State Engineer (OSE) managed the technical and
program management portions of the award, while GOED managed the financial aspect of the
award.

South Dakota used its Recovery Act SEP funds to identify and implement cost-effective energy
conservation measures at state institutions such as schools, prisons, and administrative buildings.
Its energy conservation projects included the installation of heating/cooling systems, lighting,
windows, and other energy conservation upgrades. In 2009, under its Recovery Act SEP, South
Dakota conducted a study that identified a total of 1,168 prospective energy conservation
measures across approximately two-thirds of the state's facilities total square footage. Further, it
allocated about $23.5 million in subgrants to 22 state institutions for 48 projects, and about
$200,000 to OSE for administrative functions.

The Office of Inspector General received a complaint alleging that South Dakota officials had
modified supporting documents for completed, state-funded projects in order to replace state
dollars with Recovery Act SEP funds. The complaint also asserted that there were irregularities
in a number of building projects managed by two of the state's public institutions, and that there
were media reports of potential financial misconduct within the GOED. We initiated this inquiry
to examine the circumstances surrounding these allegations.
                                                 2


RESULTS OF INQUIRY

We did not substantiate the allegations. Specifically, nothing came to our attention to indicate
that South Dakota used Recovery Act SEP funds to pay for projects that had already been
completed prior to the SEP award performance period. Additionally, our limited testing of select
files did not identify irregularities that would indicate fraud, waste, abuse, or mismanagement
related to Recovery Act SEP funds.

                                          Project Funding

We did not substantiate the allegation that South Dakota officials modified documentation in
order to replace state dollars with Recovery Act SEP funds for projects that had been completed
prior to the award period of performance. Specifically, the complaint alleged that documentation
for state-funded projects had been postdated for reimbursement from Recovery Act SEP funds.

We found that South Dakota had implemented control measures designed to help ensure that
Recovery Act SEP costs and obligations were incurred during the award's period of performance.
Through interviews and reviews of project files at both the OSE and GOED, we found that South
Dakota had a multi-level system involving approvals of officials from independent offices within
the state government for award selection, subgrant and contractor agreements, and the invoice
review and approval process. We also found that OSE engineers provided technical guidance to
subgrantees and solicited and selected contractors for all Recovery Act SEP projects reviewed.
OSE engineers also reviewed all Recovery Act SEP project invoices and submitted the invoices
to the GOED for payment processing, as evidenced by signatures on invoices and requests for
payments. Additionally, the GOED reviewed, processed, and prepared state vouchers for all
contractor payments and state agency requests for reimbursement. Further, we verified the
selected information found in the project files during our site visit with 9 state institutions at 11
project locations in 4 cities across South Dakota. We toured project sites and verified the
installation of conservation measures for selected projects funded under the award. We also
corroborated information obtained at OSE and GOED regarding project timeframes with facility
personnel at each location.

We reviewed South Dakota's files to validate the timeframes on the projects completed and
found that its files contained documentation to support that costs charged to the SEP award were
incurred during the authorized period of performance from April 1, 2009 to March 31, 2012.
Accordingly, our review of the financial records did not identify any instances in which funds
were expended for obligations incurred outside the period of performance. Further, based on
information reviewed in the project files, such as requests for proposals, contractor statements of
interest, and contracts, we validated that the selection and awarding process had been completed
within the authorized grant period for all projects in our sample.

The assertion that there were irregularities in building projects completed by two state
institutions identified in the complaint was also not substantiated. Specifically, the complaint
indicated that the sequential numbering of construction project records and matching project
dates were highly unusual for these types of major building projects as support for the primary
allegation that documents had been modified in order to replace state funds with Recovery Act
                                                3


funds. However, our review of project documentation, together with the result of the previously
discussed test work we performed of the state's control structure, did not substantiate the
assertion of these purported irregularities.

Regarding the assertion of potential financial misconduct within the GOED, nothing came to our
attention that would link the media reports of financial irregularities at GOED to Recovery Act
SEP funds. While we found that there were ongoing reviews regarding an individual that had
been assigned to the GOED, officials from the OSE and GOED affirmed that the individual had
no involvement with the administration of the Recovery Act SEP. Accordingly, in our review of
South Dakota's project and financial files, we did not find any indication that the individual was
involved in the administration of the Recovery Act SEP.

CONCLUSION

We found that South Dakota had implemented control measures to ensure that Recovery Act
SEP costs and obligations were incurred during the award's period of performance. Specifically,
South Dakota had maintained an adequate system of controls and records to allow for
independent review. Supporting documentation in OSE and GOED project files included
contracts and invoices with approving signatures. Finally, our review determined that South
Dakota had a multi-level system involving numerous offices and individuals, practices that
would reduce fraud risk at the state level. Based on the selected subgrants we reviewed, South
Dakota had properly applied those control measures.

We appreciate the cooperation of your staff during this review.

cc: Deputy Secretary
    Deputy Under Secretary for Science and Energy
    Chief of Staff
                                                               IG Report No. OAS-RA-L-14-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
